                                                                                                  January 29, 2013


The Honorable Hillary Rodham Clinton
  Secretary of State

Dr. Rajiv Shah
  Administrator
  U.S. Agency for International Development

The Honorable James B. Cunningham
  U.S. Ambassador to Afghanistan

Dr. S. Ken Yamashita
  Mission Director, Afghanistan
  U.S. Agency for International Development


I am writing to share with you the results of an analysis we recently conducted—in conjunction with both the
Criminal Investigation Task Force (CITF) 1 and the National Geospatial-Intelligence Agency (NGA) 2—on data
contained in the Afghanistan Infrastructure and Security Cartography System (AISCS). AISCS is a web-based
geospatial database intended to provide the U.S. Agency for International Development (USAID) a
comprehensive and accurate picture of infrastructure development in Afghanistan. Because of the importance
and potential value of this database as an oversight and planning tool, we tested the reliability of AISCS data.
Our analysis showed that, while the database could be a useful tool for mapping infrastructure in Afghanistan,
there are some problems with the data’s accuracy and completeness. Most notably, the geographic
coordinates for a number of the sites appear to be incorrect.


Background
AISCS was developed by International Relief and Development, Inc. (IRD), a USAID contractor, through its
Afghanistan Infrastructure Data Center. 3 According to the USAID Office of Inspector General, AISCS was
designed to include geospatial information on development activities, including construction of roads, schools,
clinics, hospitals, and public buildings such as courthouses and district centers. IRD was to obtain
infrastructure project site information from the USAID mission in Afghanistan, as well as the Department of




1 The Department of Defense created CITF in 2002 to conduct worldwide criminal investigations of alleged or suspected
war crimes and acts of terrorism against U.S. persons, property or interests in conjunction with the Army Criminal
Investigation Command.
2 NGA is the lead federal agency for geospatial intelligence. Its mission is to provide timely, relevant, and accurate

geospatial intelligence in support of national security.
3   This data center, including the staff, hardware, and software used to create AISCS, cost an estimated $4 million.
Defense, and verify the accuracy of that information. 4 According to IRD, it has “stringent ongoing multi-tiered
quality control protocols in place to insure accuracy and precision collected data [sic].” 5


What We Did
In 2012, SIGAR requested that USAID provide a list of all USAID-constructed infrastructure projects in
Afghanistan. USAID’s Office of Economic Growth & Infrastructure responded to this request by providing a
spreadsheet of 5,648 construction project records. 6 Records in the dataset contain information such as
project name, location, status, and donor.
Our initial assessment of the dataset raised some concerns about its completeness and reliability. For
example, we identified duplicate records—entries with an exact match by project name and location (latitude
and longitude). We also found instances of missing data elements within records, including project type,
implementing partner, and actual cost information.
We determined that the dataset had been pulled from AISCS and decided, therefore, to assess that database
more carefully. We observed that, of the 33,000 records in AISCS, only 16 percent were shown as having
confirmed locations. We selected 10 projects from AISCS and asked CITF to corroborate the projects’ stated
locations using a variety of unclassified and classified sources. These 10 projects were spread geographically
throughout Afghanistan and represented various sectors, including health, education, government,
transportation, and hydroelectric power.
CITF found that location coordinates for 4 of the 10 projects were highly accurate, but were significantly
inaccurate for 3 of the 10. For the remaining 3 projects, CITF determined that insufficient corroborating
information was available to assess the spatial accuracy of the coordinates. In other words, CITF was unable
to locate the project.
Because this initial test raised our level of concern about the reliability of AISCS, we chose to perform a more
methodologically rigorous analysis of the data. We selected one category of buildings from the data set
provided—those listing “education” under the “building type” category. We chose this category, in part,
because location information (both latitude and longitude) was available for all buildings in this group. We
then isolated those that were shown as “completed” in the “status” field and also removed duplicate entries
we had identified. 7 This filtering process resulted in a total of 549 completed USAID-funded schools 8 in
Afghanistan.
We then stratified the 549 project records into urban and rural locations. 9 We found that 83 percent of the
schools were located in rural areas, while 17 percent were located in urban areas. Using these two strata, we



4 USAID Office of Inspector General, Audit of USAID/Afghanistan’s Human Resources and Logistical Support Program, Audit

Report No. 5-306-10-007-P, March 31, 2010.
5AISCS   Newsletter Issue No. 1
6 USAID omitted from this list large energy infrastructure rehabilitation projects, including existing hydroelectric plants,

substations, transmission lines and some distribution networks.
7   Of the 613 buildings in this category, 53 were not listed as completed and 11 were duplicates.
8 For the purposes of this letter, we are using the term “schools” to describe a variety of education-related facilities, also

including dormitories, provincial training centers, and kindergartens.
9 Due to the disparity in access to and resources available in urban and rural locations within Afghanistan, we determined

that the rural/urban classification of a school could have a significant impact on a building’s record accuracy with respect
to location. We sought to increase the precision of our findings by matching the proportion of rural/urban locations in our
sample to the larger population. To determine whether a school would be considered urban or rural, we used population
data from the Afghanistan Central Statistics Organization for the school’s civil division. If the school was located in an area


SIGAR Alert-13-1                                                                                                          Page 2
sampled 189 school records in rural locations and 38 in urban locations for a total of 227 school records in
our final stratified statistical sample.
We submitted the 227 sample school records to NGA. Using the latitude and longitude provided within each
record, NGA analyzed available imagery and returned an analysis of the sample records that listed location
confidence as “school at coordinates,” “school within a 400 meter radius,” “no school within a 400 meter
radius,” “unable to determine,” or “duplicate.” 10


What We Found
NGA determined that the stated location for most of the
schools in our sample was accurate. Specifically, of the 227
schools, NGA found that 185 (81%) of them were at the given
coordinates.
However, NGA could not confirm the coordinates for the
remaining 42 records (19%). Specifically, for 12 of the
records (5%), NGA determined that there was a school within
400 meters of the given coordinates; for 20 (9%), there was
no school within 400 meters; and for 8 (4%), NGA was
unable to make a determination. NGA considered two of the
schools (1%) to be duplicates.
SIGAR considers the coordinates for these 42 records (19%)
to be questionable. Based on our sample, we project with
95% confidence that between 74 and 129 of the total 549
completed, USAID-funded schools in Afghanistan have
location coordinates that cannot be verified using geospatial
means or are incorrect. 11

Conclusion
Complete and accurate data on the location of U.S.-funded infrastructure in Afghanistan is critical for
successfully managing reconstruction projects and is relied upon by SIGAR and others as an important
oversight tool. While most of the AISCS data on school location appears to be accurate, we are also concerned
by the problems we found, particularly given IRD’s statement that it applies “stringent ongoing multi-tiered
quality control” to the data. Incomplete and/or inaccurate data limits our ability to verify the effectiveness of
expended reconstruction funds, validate that reconstruction projects are being used for their intended
purpose, and analyze the efficiency and effectiveness of U.S.-led reconstruction efforts in Afghanistan. It will
also hinder the ability of the Afghan government to sustain these projects after it assumes responsibility for
them. We therefore encourage you to carefully assess how IRD verifies and maintains this database and to
hold IRD accountable if shortcomings in this process are identified.

with a majority urban population, it was categorized as “urban;” if the majority of the local population was rural, we
categorized it as rural.
10NGA considered a record to be a duplicate if it contained coordinates that were at or near another provided set of

coordinates in the sample, even if the project names differed. By contrast, SIGAR considered duplicates to be those for
which there was an exact match by both building name and location.
11 At a 95-percent confidence level, our sample proportion fell within 5.1% of the actual population parameter. We can say

with 95-percent confidence that the total percentage of questionable project locations in the population falls within 5.1% of
the total observed in the sample (18.5%), and is therefore between 13.45% and 23.55% of the 549 records in the
population.



SIGAR Alert-13-1                                                                                                         Page 3
We conducted our work in Arlington, Virginia, from July 2012 to January 2013 in accordance with SIGAR’s
quality control standards. Those standards require that we plan and perform the review to obtain sufficient,
appropriate evidence to meet our stated objectives and to discuss any limitations in the work. We believe that
the information and data obtained, and the analysis performed, provide a reasonable basis for our findings
and conclusions. This work was conducted under the authority of Public Law No. 110-181, as amended; the
Inspector General Act of 1978; and the Inspector General Reform Act of 2008. Major contributors to this
report were Derek Benekebove, Mia Bonarski, and Ben Tangpricha. Please contact my Assistant Inspector
General for Audit, Mr. Ryan Coles, at                                           if you have any questions or
concerns regarding this work.




                                                                    Sincerely,




                                                                    John F. Sopko
                                                                    Special Inspector General
                                                                      for Afghanistan Reconstruction




SIGAR Alert-13-1                                                                                        Page 4
          ;USAID AFGHANISTAN
             FROM THE AMERICAN PEOPLE




                                                                 March 9. 20 13



The Honorab le John F. Sopko
Special inspeclOr General
fa r Afg hanistan Reconstructi on (S IGAR)

DcaI' Mr. Sopko:

Thank you far your leltcr of January 29, 20 13, sharing th e A(ghan istan
In li'astru cture and Securit y Cartograph y Systel11 (J\lSCS) ana lys is that SIGAR
conducted with the Criminal In vestigation 'rask Force ce nT) and the Na tiona l
Gcos pmial-l nl cll igcl1cc Agency (NGA). Based OJ1lhis analys is. SIG AR raised
conccms on th e acc uracy and comp leteness o f A ISCS data. speci fica ll y ciling
errors wi th the geog raphi c coo rdinates for a number of the sites.

Comp ariso n orS IGA RIN GA an d USAID/ IRD Reviews

We und erstand th at SIGAR ident ified a samp le 01"227 schoo l reco rds from
A ISCS. which NGA anal yzed lIsing ava ilab le imagery. NGA found 185 of
th ose schoo ls (81 %) at the g iven coo rdinat es. but co uld not confirm the
coordinates ro r the rema ining 42 reco rds ( 19%). /\s a result. SIGAR considered
th e coordinates to be ques tionable.

To address SIGAR"s co nce rn s. US/\ ID directed th c co ntrac tor that developed
/\ ISCS. Intern atio nal Relier an d Deve lopment. Inc. (lRD). to conduct an
im mediate review a l' th e database. wi th particular foc us on the 42 reco rds
( 19%) that SIGAR/ NGA ident ifi ed as havi ng either incorrect or inconclusive
coordinates in A ISCS. IRD re viewed th e coord inates lIsing a combination o f
ae rial imagery and s ite visit reports. The rev iew fi ndings arc summari zed
be low and in Enclosure I. and supported by the enclosed slides showing
imagery for each loca tion .

•    For th e 12 schools (5%) NG/\ !c un d wit hin a 400-meter rad ius orthe given
     coordinates. IRD's review located I I stru ctures with in th e 400-meter radius.
     One ( I) stru cture was located be yo nd . 1-00 meters fro m the J\ ISCS


U S Agency for InlernallOnal Development   Tel 202·216-€288I 0700· 108·001
Grea t Massoud Road                        Email katwluSilldmformi!llOn@llsajdQpy
Kabul. Afghanlsl an                        !!l!p IMghanlstan usaidll2'l!
   coordinates. The AISCS coordinates for this school have since been
   updated. Imagery for the 12 schools is provided in Enclosure 2.

• For the 20 schools (9%) NGA could not locate within a 400-meter radius of
  the given coordinates, IRD's review located 11 structures within 400 meters
  of the AISCS coordinates. Using coordinates found in site-visit reports, IRD
  located eight (8) structures outside the 400-meter radius from the AISCS
  coordinates. Coordinates for one school were incorrectly recorded in both
  AISCS and the field trip report, and will require a field visit for verification.
  Please refer to Enclosure 3.

• For the eight schools (4%) that NGA was unable to make a determination,
  IRD's review located all eight structures at the given AISCS coordinates.
  Enclosure 4 shows the imagery for each school.

• For the two records (1 %) that NGA considered duplicates, IRD's review
  located one (1) school at the AISCS coordinates, with the other school
  located 225 meters from the AISCS coordinates. Please refer to
  Enclosure 5. With regard to SIGAR's concern with duplicate records, it
  should be noted that each record in AISCS represents a project or assistance,
  rather than a structure. Some structures received assistance more than once
  for different purposes (Le., non-structural renovation, structural renovation,
  etc.). A structure would be listed in AISCS as many times as it received
  assistance.

In summary, of the 42 school records that SIGARINGA found questionable,
IRD located all schools, with the exception of one structure. Thirty two (32)
schools were located within 400 meters of the AISCS coordinates, in addition to
the 185 schools that NGA already confirmed as having accurate coordinates.
This would bring the total number of schools located within 400 meters of the
AISCS coordinates to 217, or 96% of the total sample. Nonetheless, nine (9)
schools (4%) were found to have the wrong coordinates recorded in the system.
The lone school not located was completed in 2004 and was last visited on
November 4, 2007 as part of a post-occupancy evaluation. While the structure
and condition of this school were documented in the site-visit report, the
location coordinates were erroneously recorded, and will thus require are-visit
for verification.

In the same manner, USAID and IRD would also like to address CITF's
findings that "location coordinates for 4 of the 10 projects were highly
accurate, but were significantly inaccurate for 3 of the 10." Without more
information about the sample data, the assessment methodology employed, and



                                       -2-
any other parameters that would help us identify the project records CITF
assessed, we cannot respond to the SIGARICITF findings.

Challenges of Infrastructure Data Collection and Location Verification

To understand the challenges of verifying location data for the schools, it is
important to note that most of these projects were completed prior to 2008,
when IRD, under the Human Resource and Logistical Support (HRLS)
Program, did not have the technology for data verification. Location data were
collected using hand-held Global Positioning System (GPS) devices
manufactured for recreational purposes, such as those from Garmin, and data
manually recorded on paper. Between 2004 and 2007, the HRLS Program
relied largely on supervisors' review of location data submitted by the
engineering monitors. With the availability of improved technology, i.e., NGA-
supplied imagery, IRD has added the use of aerial imagery verification to its
location data-confirmation process.

Recognizing the need to develop a comprehensive list of infrastructure
projects in Afghanistan for effective planning, USAID's former Office of
Infrastructure, Engineering and Energy (OIEE) tasked IRO in 2008 with the
expansion of the database to include project data from other USAIO offices, the
Afghan Government, and donors, including the Military. USAIO's contract
with IRD did not require verification of the non-OIEE data, as the cost of doing
so, especially given the security and logistical conditions in Afghanistan, would
have significantly outweighed the benefits. As such, IRD collected non-OIEE
project data and used them in the database, but classified them as
"unconfirmed." Location data for non-OIEE projects are verified as availability
of human and logistical resources and security conditions allow. To date, IRD
has confirmed location data for 1,555 buildings, or 52%, of the 3,003 health,
education and government building records in the database.

Conclusion

USAIO welcomes feedback on AISCS, as it will help us further improve the
database. AISCS evolved from a list of infrastructure projects that IRD was
monitoring on behalf ofOIEE under the HRLS Program. Its expansion into a
database that includes infrastructure projects of other Mission offices, the
Afghan government, donors and the military was borne out of the need to know
what other players in Afghanistan are doing in order to improve infrastructure
planning and development. We recognize the expansion of AISCS has its




                                      - -
                                        ~
                                       .)
trade-oris on data accuracy, but we also believe that thi s can be mitigated by
j oint data reviews , consultat ions and data sharing. The assistance ofS IGAR,
NGA and C IT F toward s thi s end is greatly ap preciated.

                                               Since rely,



                                               Brooke Isham
                                               Act in g Mission Director


Enclosures:
1. Summary of IRD Rev iew of the 42 School Reco rds
2. Imagery far NGA Classification "Schools wi thin 400 meter radius"
3. Imagery l'or NGA Classificat ion "No school wit hin a 400 meter radius"
4. Imagery far NGA Classi lication "Unab le to determ ine"
5. Imagery l'or NGA Classificat ion "Duplicate"




                                       , ·1,
